***THIS IS A CAPITAL CASE***
No.
IN THE SUPREME COURT OF THE UNITED STATES
JEFFREY HESSLER,
Petitioner,
v.
STATE OF NEBRASKA,
Respondent.

On Petition for a Writ of Certiorari
To the Nebraska Supreme Court
PETITIONER’S MOTION TO PROCEED IN FORMA PAUPERIS

Petitioner, Jeffrey Hessler, asks leave to file the attached petition for a writ of
certiorari without prepayment of costs and to proceed in forma pauperis. On
February 25, 2003 the District Court of Scotts Bluff County, Nebraska found Mr.
Hessler indigent and appointed counsel to represent him in the underlying capital
case. Mr. Hessler has remained incarcerated since that date. Later, in post-conviction
proceedings the same court found Mr. Hessler “unable to pay fees, costs, or give
security because of indigence.” He was appointed counsel once again. On February

23, 2012 the United States District Court for the District of Nebraska found Mr.
Hessler indigent and appointed counsel to represent him in federal habeas corpus
proceedings.
The courts’ orders are attached hereto.

Respectfully submitted,
s/ JERRY M. HUG
Counsel of Record
209 S . 19th St, #323,
Omaha, NE 68102
(402) 346-1733
jerry.hug@gmail.com
*Counsel for Jeffrey Hessler

IN THE DISTRICT COURT OF SCOTTS BLUFF COUNTY, NEBRASKA
THE STATE OF NEBRASKA
Plaintiff,
vs.

)
)
)
)
)
)

CASE NO. CR 03-39

JOURNAL ENTRY

JEFFREY HESSLER,
)

Defendant.

)

NOW ON THIS 25TH day of February, 2003, this matter came on for preliminary
hearing upon the Complaint filed directed in District Court. The defendant was present and
represented by counsel, James Mowbray and Jeffery Pickens. The State of Nebraska was
represented by Deputy County Attorney Douglas Warner and Deputy County Jeffrey Hill. The
Honorable Randall L. Lippstreu presided.
The defendant is determined to be indigent and the Court appoints James Mowbray and
Jeffery Pickens from the Commission on Public Advocacy to represent the defendant at all future
critical stages of these proceedings as provided for by law. The Court is advised that the
defendant will waive preliminary hearing. The defendant is questioned by the Court concerning
the waiver of preliminary hearing. The defendant verbally waives his right to a preliminary
hearing. The Court finds that the defendant's waiver of preliminary hearing is made freely,
voluntarily, and intelligently. The defendant's waiver of preliminary hearing is accepted by the
Court and he is bound over to be held for trial in the District Court of Scotts Bluff County,
Nebraska.
The defendant received a copy of the Information and waived the 24 hour waiting period.
The defendant is arraigned on the Information. The Court advised the defendant of the possible
penalties that could be imposed on all counts alleged in the Information. The defendant stands
mute and a plea of not guilty is entered on his behalf by the Court.

DiSTRICT COURT
FEB 2 8 2003

'f'PU'
Cll
I
I I L. 'iv1
M.lv,

FIL'''l

i

]

,

J.,.. J7 zo03

Pg.2

The Court then considered the defendant's Motion for Discovery and Motion for
Depositions which were filed. There is no objection by the State to the defendant's Motion for
Discovery and no objection to the Motion for Depositions. The Motion for Discovery is
sustained and the State is allowed reciprocal discovery. The Motion for Depositions is also
sustained.
The Court will hold a scheduling conference with counsel and enter a later order setting
trial and hearings for pretrial motions.

2- ") 7- 0 J
-------------------

Dated

cc: CPA

~EB

2 7 2008

IN THE DISTRICT COURT FOR SCOTTS BLUFF COUNTY, NEBRASKA
THE STATE OF NEBRASKA,
Plaintiff,
vs.
JEFFREY A. HESSLER,
Defendant.

}
}
)
}
}

CASE NO: CR 03-39
Order allowing post conviction filing
in forma pauperis pursuant to Neq,,,
Rev. Stat. § 25-2301 et. seq.
·

~

Upon consideration of the defendant's motion and affidavit to proceed in forma
pauperis, the court finds that the defendant is unable to pay fees, costs, or give security
because of his indigence. It is therefore ordered:
1.

That the defendant is authorized to file a post conviction proceeding without
prepayment of fees or costs or security; and responsible officers of the court are
to issue and serve all necessary writs, process, and proceedings and perform all
such duties without charge.

2.

If there is any necessary expense of publication of process, subpoena of witnesses, or expenses of printing the record or briefs on appeal, the cost shall be
paid by Scotts Bluff County.

3.

Transcripts shall be ordered to be furnished without cost if the proceeding is not
frivolous and presents a substantial question; if the transcript is needed to
prepare, present, or decide issues presented. The expense of preparation of
such a transcript shall be paid by Scotts Bluff County.

4.

The Scotts Bluff County Public Defender is appointed to represent the defendant
in this post conviction proceeding.

DATED February 27, 2

000058434021

District Judge
cc:

Defendant
Public Defender
County Attorney

Page 1 of 1

8:12-mc-00026-LSC *SEALED* Doc # 8 Filed: 02/23/12 Page 1 of 1 - Page ID II 19

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
JEFFREY A. HESSLER,
Petitioner,
vs.
ROBERT HOUSTON,
Respondent.

)
)
)
)
)
)
)
)
)

CASE NO. 8:12mc26
SEALED
ORDER

This matter is before the Court on the Motion for Appointment of Counsel (PrePetition) (Filing No.1) filed by the Petitioner, Jeffrey A. Hessler.
IT IS ORDERED:
1.

The Petitioner's Motion for Appointment of Counsel (Filing No.1) is granted;

2.

The Court appoints the Capital Habeas Unit of the Federal Public Defender
for the Eastern District of Arkansas and Alan G. Stoler to represent the
Petitioner in this federal habeas corpus case and in any ancillary
proceedings.

DATED this 23'd day of February, 2012.
BY THE COURT:

slLaurie Smith Camp
Chief United States District Judge

